September 2008
Report No. AUD-08-015


Protection of Resolution and
Receivership Data Managed or
Maintained by an FDIC Contractor
                                               Report No. AUD-08-015                                                 September 2008

                                               Protection of Resolution and Receivership
                                               Data Managed or Maintained by an FDIC
   Federal Deposit Insurance Corporation       Contractor
Why We Did The Audit
                                               Audit Results
The FDIC’s Division of Resolutions and
Receiverships (DRR) is responsible for         DRR’s closing support BOA contains the necessary privacy and information security
all activities related to the closing, field   clauses consistent with FDIC guidance that was in place when the FDIC awarded the
management, and resolution of failed                                                        KEY FDIC
                                               contract. Moreover, the Statement of Work contains        PRIVACY
                                                                                                   a clause         AND
                                                                                                             requiring that the
financial institutions. The objectives of      contractor comply with all FDIC policies and S ECURITY C
                                                                                            procedures,    LAUSES any new policies
                                                                                                         including
this audit were to (1) determine whether       and procedures developed during the contract term. For instance, the contractor
the closing support contract used by the       would be required to comply with the FDIC’s policy for safeguarding information
DRR Business Information Systems               described in FDIC Circular 1360.9, Protecting Sensitive Information, which became
(BIS) Section contains privacy and             effective after the contract award date.
information security clauses to protect
pre-closing and failed institution data
                                               The OM is taking multiple steps to ensure the contractor is aware of, and complying
and (2) evaluate the steps the FDIC
Oversight Manager (OM) takes to                with, the privacy and information security clauses. For example, the OM reviewed
ensure the contractor is complying with        the contractor’s IT security plan and routinely monitors the status of background
privacy and information security               investigations for contractor personnel. The OM is planning to take additional steps
clauses.                                       to ensure the contractor has complied with the FDIC’s training requirements and to
                                               sustain contractor attention regarding its responsibilities for safeguarding
Background                                     information. With regard to IT equipment, as necessitated by a business need at the
                                               time the FDIC awarded the contract, the FDIC did not furnish the contractor with
The FDIC has established a risk-based
                                               laptops and has since relied on the contractor to maintain its laptops consistent with
corporate-wide security program and a          FDIC information security standards. In June 2008, DRR established a pool of
privacy program to protect the sensitive       laptops provided by the Division of Information Technology for contractor use.
information the Corporation manages.           Furnishing FDIC equipment allows the FDIC to ensure the security of information
These programs include guidance for            stored on the laptops and allows contractor personnel to store sensitive data on the
contractors and OMs to help ensure             laptops as circumstances dictate without violating FDIC policy for protecting
contractors are complying with                 sensitive information. With regard to the contractor’s laptops used prior to June
government-wide and FDIC information           2008, the FDIC is requiring that the contractor sanitize those laptops in accordance
security policies and procedures.              with FDIC procedures. A Technical Monitor is helping the OM coordinate with the
                                               contractor to ensure the process is completed in a timely manner. In the interim, the
The FDIC collects sensitive information        contractor has physically secured all of its laptops until the sanitization process is
when conducting resolution and                 completed. The Technical Monitor is maintaining a log to track the deployment of
receivership activities at FDIC-insured        the FDIC’s laptops to contractor personnel.
financial institutions. Such information
includes personally identifiable               One area warrants additional attention. The Contracting Officer and OM found
information (e.g., name, address, Social       Confidentiality Agreements for only 32 (70 percent) of 46 contractor personnel.
Security number, phone number, and             Confidentiality Agreements document an individual’s understanding of, and
account and loan data) for institution         commitment to, safeguarding data and are a key security requirement under the
depositors, borrowers, and employees.
                                               contract. FDIC policy and the BOA are clear that the Contracting Officer is
DRR’s BIS Section, located in the
                                               responsible for ensuring that contractor personnel sign the agreements and for
FDIC’s Dallas Regional Office, is
responsible for securing all the
                                               maintaining them in the contract file. Strengthening controls over Confidentiality
operating systems, data, and hardware          Agreements will help to further protect sensitive resolution and receivership
once a failing institution is closed. To       information.
that end, DRR has established a Basic
Ordering Agreement (BOA) to obtain             Recommendation and Management Response
information technology (IT) support for
the BIS Section. A BOA is an                   We recommended that the FDIC establish controls to ensure that Contracting
agreement setting forth the terms and          Officers obtain signed Confidentiality Agreements from all contractor personnel
conditions to be applied to future task        required to submit such agreements and maintain copies of those agreements in the
orders. The FDIC’s policies address the        contract file. Management concurred with our recommendation and is taking
IT security requirements that should be        responsive corrective action.
incorporated into IT procurements.


   To view the full report, go to www.fdicig.gov/2008reports.asp
Contents
    BACKGROUND                                                            2

    AUDIT OBJECTIVES                                                      5

    AUDIT APPROACH                                                        6

    RESULTS OF AUDIT                                                      7

    PRIVACY AND INFORMATION SECURITY CLAUSES                              9

    STEPS TAKEN BY THE OM                                                15

    CONCLUSION                                                           23

    RECOMMENDATION                                                       24

    CORPORATION COMMENTS AND OIG EVALUATION                              25

    APPENDICES
      1. OBJECTIVES, SCOPE, AND METHODOLOGY                              26
       2. CORPORATION COMMENTS                                           31
       3. MANAGEMENT RESPONSE TO THE RECOMMENDATION                      33
       4. ACRONYMS USED IN THE REPORT                                    34

    TABLES
       1. OIG Analysis of BIS Closing Support Contract Clauses           11
       2. OIG Analysis of Oversight Related to Privacy and Information
          Security                                                       19

    FIGURES
      1. Composition of the Contractor’s Team                            3
       2. Summary of the Contractor’s Primary Responsibilities           4



                                                     1
Background
•   The FDIC’s Division of Resolutions and Receiverships (DRR) is responsible for all activities related to the
    closing, field management, and resolution of failed financial institutions.

•   The FDIC has established a risk-based corporate-wide information security program and a privacy program
    to protect the sensitive information that the Corporation manages. These programs consist of corporate
    policies, procedures, and guidance; a Chief Information Security Officer and Chief Privacy Officer with
    overall responsibility for information security and privacy, respectively; Information Security Managers
    (ISM) within the FDIC’s program divisions and offices to ensure a business focus on information security
    and privacy; and mandatory information security and privacy awareness training for FDIC employees and
    contractor personnel.

•   Key to achieving the FDIC’s mission is safeguarding the sensitive information the Corporation collects
    when conducting resolution activities. Such information includes sensitive personally identifiable
    information (e.g., names, addresses, Social Security numbers, phone numbers, and account and loan data)
    for institution depositors, borrowers, and employees.

•   Under the umbrella of the corporate program, DRR has established a number of controls to integrate
    information security and privacy protection into its business operations and systems – including appointing
    an ISM, defining security business rules for resolution and receivership data, and developing division-
    specific policies and guidelines for safeguarding the sensitive information the Corporation handles.




                                                 2
Background
•   DRR’s Business Information Systems (BIS)
    Section in the Dallas Regional Office is
    responsible for identifying all electronic
    equipment, data systems, Web sites, and Internet
    banking services and products at a failing/failed      Figure 1: Composition of the Contractor’s Team
    financial institution and securing all operating
                                                           Generally, one or more of the following are on the
    systems, data, and hardware once the failing           team:
    institution is closed.
                                                           ♦ IT Manager (Electronic Data Processing Manager)
                                                           ♦ IT Security Specialist
•   In February 2006, DRR established a Basic
                                                           ♦ Network Local Area Network (LAN) Specialist
    Ordering Agreement (BOA) with Deloitte                   (LAN/Wide Area Network Administrator)
    Consulting (contractor) to provide information         ♦ IT Specialist (Hardware Support Specialist)
    technology (IT) support services required during       ♦ IT Specialist (Download Specialist)
    the resolution of a failed financial institution.      ♦ IT Specialist (Data Forensics Specialist) under
                                                             certain circumstances, as determined by the
                                                             OM/Technical Monitor (TM)
•   As the need arises, the FDIC issues a task order,
    under the terms of the BOA, that details the IT       Source: Statement of Work – BIS closing support contract.
    staffing and services required to support a
    particular failed institution closing. The
    Contracting Officer (CO) and Oversight
    Manager (OM) refer to the BOA and the task
    orders as the BIS closing support contract.
    Figure 1 illustrates the typical composition of the
    contractor’s team.



                                                  3
Background
•   As of June 19, 2008, the FDIC had awarded 34 task orders under the BOA, which totaled $8.5 million.
    Figure 2 summarizes the contractor’s primary responsibilities.

     Figure 2: Summary of the Contractor’s Primary Responsibilities


     ♦ Coordinate pre-closing plans and activities with the BIS OM/TM, Receiver-in-Charge, and
       Closing Manager.
     ♦ Secure the failed institution’s on-site data processing operations, communications systems,
       e-banking services, Fed Wire, Internet service provider, and networks.
     ♦ EDP Manager acts as a point of contact between the closing manager and failed institution’s
       data processing operations staff and its data processing servicer.
     ♦ Coordinate processing requirements for all FDIC Closing Team Function Areas.
     ♦ Coordinate ongoing operation with the entity purchasing the failed institution.
     ♦ Coordinate imaging and storage of documents associated with the failed institution.
     ♦ Obtain and deliver data file downloads and reports, as required.
     ♦ Map data, convert data, reconcile data to subsidiary trial and general ledger balance totals,
       and load data to FDIC applications.
     ♦ Provide LAN administration and network support for the FDIC’s accounting system and the
       Receivership Liability System LANs.
     ♦ Prepare ad hoc reports, letters, and labels, as requested, using mapped downloaded data.
     ♦ Provide general hardware and software support to the FDIC Closing Team.
     ♦ Preserve and analyze (in certain cases, as defined by the BIS OM/TM) data stored in various
       electronic media such as desktop personal computers, laptops, network storage devices, palm
       pilots, personal digital assistants, and cell phones.
    Source: Statement of Work – BIS closing support contract.



                                                                4
Audit Objectives

           Objective 1              Determine whether the closing support contract used by
                                    DRR’s BIS Section contains privacy and information
 Privacy and Information Security   security clauses to protect pre-closing and failed
         Contract Clauses           institution data.


           Objective 2              Evaluate the steps the OM takes to ensure the contractor
                                    is complying with the privacy and information security
     Steps Taken by the OM          clauses in the contract.




                                5
    Audit Approach
To accomplish our objectives, we:

      –   Obtained and reviewed contract documents, including the BOA, Statement of Work, and one of the
          task orders issued for closing support activities.

      –   Reviewed relevant policies and procedures to identify the contracting requirements and the OM
          responsibilities with regard to privacy and information security.

      –   Obtained information from officials in: the Division of Administration (DOA), including the
          Contracting Officer (CO); DRR, including the OM and officials in DRR’s ISM Section; and the
          Division of Information Technology’s (DIT) Information Security and Privacy Staff.

      –   Consulted with the Counsel to the Office of the Inspector General (OIG) to help us evaluate whether
          security and privacy clauses were consistent with relevant guidance.

•    We conducted this performance audit from April 2008 through June 2008 in accordance with generally
     accepted government auditing standards. Additional details on our objectives, scope, and methodology are
     in Appendix 1.




                                                  6
Results of Audit
Privacy and Information Security Clauses in the Closing Support Contract

•   DRR’s closing support BOA contains the necessary privacy and information security clauses consistent
    with FDIC guidance that was in place when the FDIC awarded the contract. Moreover, the Statement of
    Work includes a clause requiring that the contractor comply with all FDIC policies and procedures,
    including any new policies and procedures developed during the contract term. For instance, the contractor
    would be required to comply with the FDIC’s guidance for safeguarding information described in FDIC
    Circular 1360.9, Protecting Sensitive Information, which became effective after the contract award date.

Steps Taken by the OM to Ensure Compliance with the Privacy and Information
Security Clauses

•   The OM is taking multiple steps to ensure the contractor is aware of, and complying with, the privacy and
    information security clauses. For example, the OM reviewed the contractor’s IT security plan and routinely
    monitors the status of background investigations for contractor personnel. Further, the OM is planning to
    take additional steps to ensure the contractor has complied with the FDIC’s training requirements and to
    sustain contractor attention regarding its responsibilities for safeguarding information.




                                                7
Results of Audit
•   With regard to IT equipment, as necessitated by a business need at the time the FDIC awarded the BOA,
    the FDIC did not furnish the contractor with laptops. Therefore, the FDIC relied on the contractor to
    maintain security features on its laptops consistent with FDIC policies; however, use of the contractor’s
    laptops created a potential risk related to sensitive FDIC data. In June 2008, DRR established a pool of 25
    laptop computers supplied by DIT for the contractor’s use to ensure that any sensitive data collected during
    the resolution process is stored only on FDIC IT equipment. All laptops in the pool are fully encrypted to
    protect data if the equipment is lost or stolen. Furnishing FDIC equipment allows the FDIC to ensure the
    security of its laptops and allows contractor personnel to store sensitive data on the laptops as
    circumstances dictate without violating the FDIC’s policy, established in 2007, for protecting sensitive
    information.

•   With regard to the contractor’s laptops used during the resolution process (prior to 2008), the FDIC is
    requiring the contractor to sanitize those laptops and to provide a certification to the FDIC that this critical
    step was done in accordance with FDIC standards. The contractor has physically secured all those laptops
    until the sanitization process is completed. A TM is helping the OM to coordinate with the contractor to
    ensure the sanitization is done in a timely manner. DRR is responsible for tracking, cleaning, and reissuing
    the pool of laptops.

•   We found one area that warrants management attention. The CO and OM found Confidentiality
    Agreements for only 32 (70 percent) of 46 contractor personnel. Confidentiality Agreements document an
    individual’s understanding of, and commitment to, safeguarding data and are a key security requirement
    under the closing support contract. Although the CO and OM were certain that all the agreements had been
    signed by contractor personnel, neither one had ensured the agreements were maintained in the contract
    file. As such, we could not verify that agreements had been obtained as required. We are making a
    recommendation to DOA to establish controls to help ensure that contractor personnel complete and submit
    the agreements as required and that the CO maintains copies of all agreements in the contract file.

                                                   8
Privacy and Information Security Clauses
FDIC Guidance for Privacy and Information Security Clauses

•   The Acquisition Policy Manual (APM) and Interim Acquisition Policy Memorandum 2003-2, Implementing
    IT Security in FDIC Procurements, dated November 7, 2003, establish the FDIC policies and procedures
    for incorporating IT security requirements into IT procurements. Additionally, the FDIC revised the
    standard contracting documents to ensure that IT security requirements were fully addressed in all phases of
    the IT procurement lifecycle when Memorandum 2003-2 was issued.

•   The APM and Interim Acquisition Policy Memorandum referenced the following Circulars:

     –   FDIC Circular 1610.2, Security Policy and Procedures for FDIC Contractors and Subcontractors,
         dated August 1, 2003, establishes the security policy and procedures that must be followed for
         contractors and subcontractors to do business with the FDIC.

     –   FDIC Circular 1360.17, IT Security Guidance for FDIC Procurements/Third Party Products, dated
         June 30, 2003, provides guidance regarding the consideration of security in contract planning,
         incorporation of security requirements in the contract, and the oversight of contractor information
         security practices.




                                                 9
Privacy and Information Security Clauses
Privacy and Information Security Clauses in the Closing Support Contract

•   DRR worked with DOA to establish IT procurement requirements relevant at the time the closing support
    BOA was awarded. Since the award of the BOA, the FDIC’s privacy and information security program has
    continued to evolve. For example, the FDIC issued Circular 1360.9, Protecting Sensitive Information,
    dated April 30, 2007, which establishes FDIC policy on protecting sensitive information collected and
    maintained by the Corporation and guidance for safeguarding the information.

•   The standard contract documents (i.e., BOA, Statement of Work, task order) have been updated to more
    specifically address the FDIC’s current privacy and information security policies. Further, DOA, DIT, and
    the Legal Division are currently updating a number of standard clauses to coincide with the new acquisition
    policy being drafted.

•   The FDIC’s privacy and information security program has continued to evolve, and the closing support
    contract documents (i.e., the BOA and Statement of Work) require that the contractor comply with all FDIC
    policies and procedures, including new policies and procedures developed during the term of the contract.

•   Table 1 on the next page identifies the FDIC’s key IT procurement requirements and summarizes the
    clauses contained in the BIS closing support contract that are in place to address the requirements.




                                                10
Privacy and Information Security Clauses
    Table 1: OIG Analysis of BIS Closing Support Contract Clauses
           Key IT Procurement                      Corresponding Clause in BIS
             Requirements                           Closing Support Contract
                                             ; 1.2 Duties - The contractor must ensure
                                               that all connections and access to the
                                               FDIC network and systems are removed
     Return or Destruction of Hardcopy and     and no longer active when the contract
             Electronic FDIC Data              expires, and the contractor is subject to
                                               pre-exit clearance procedures.

                                             ; 3.5.1 Compliance Requirements -
                                               references the FDIC’s policy related to
                                               hardcopy and electronic data destruction
                                               (Circular 1360.17, IT Security Guidance
                                               for FDIC Procurement/Third Party
                                               Products, dated June 30, 2007).

                                             ; 3.2 Risk Level Designation - This
                                               contract has a high-risk designation. The
            Risk-level Designation             post-award background investigations and
                                               fingerprinting required for all contractor
                                               employees will be for this risk level.




                                              11
Privacy and Information Security Clauses
    Table 1: OIG Analysis of BIS Closing Support Contract Clauses (Continued)
           Key IT Procurement                      Corresponding Clause in BIS
             Requirements                           Closing Support Contract
                                             ; 3.3 Confidentiality of Information, Data,
                                               and Systems - Contractor must ensure the
                                               confidentiality of all information, data,
                                               and systems provided by the FDIC or
     Contractor Confidentiality Agreements     used or obtained by contractor personnel
                                               under this contract and prevent
                                               inappropriate or unauthorized use or
                                               disclosure. Contractor personnel must
                                               sign Confidentiality Agreements.

                                             ; 3.1 Background Investigations -
                                               Contractor personnel are subject to
                                               background investigations. In addition,
      Personnel Suitability Requirements       contractor personnel performing work on-
                                               site must submit to a fingerprint and
                                               credit check before receiving on-site
                                               identification and access control badges.




                                              12
Privacy and Information Security Clauses
    Table 1: OIG Analysis of BIS Closing Support Contract Clauses (Continued)
           Key IT Procurement                     Corresponding Clause in BIS
             Requirements                          Closing Support Contract
                                             ; 1.4 Standard of Performance - The
                                               contractor must at all times comply with
                                               FDIC policies, procedures, and directives.

                                             ; 3.5.1 Compliance Requirements - The
      Reference to FDIC Security Policies,     contractor’s IT Security Plan must be
       Procedures, Laws, and Regulations       compliant with the identified federal laws
                                               and policies and procedures.

                                             ; 12.2 Privacy Act - Establishes
                                               requirements to ensure Privacy Act
                                               compliance whenever the contractor is
                                               required to design, develop, or operate a
                                               system of records on individuals to
                                               accomplish an FDIC function.

                                             ; 3.5 IT Security Plan - The contractor
                                               must implement and maintain an IT
                 Security Plan                 Security Plan that is compliant with
                                               federal laws and FDIC policies and
                                               procedures.




                                             13
Privacy and Information Security Clauses
   Table 1: OIG Analysis of BIS Closing Support Contract Clauses (Continued)
            Key IT Procurement                      Corresponding Clause in BIS Closing
              Requirements                                   Support Contract
                                                    ; 3.6 Training Requirements - The
                                                      contractor must ensure that its personnel
        Mandatory Information Security                receive training at least annually in IT
                  Training                            security awareness and security practices.

                                                    ; 3.7 Security Awareness Website Training -
                                                      The contractor must review the FDIC’s
                                                      Security Awareness Website.


                                                    ; 3.8.1 Network Access Requirements - The
                 Network Access                       contractor must comply with all provisions
                                                      of Circular 1360.17, IT Security Guidance
                                                      for FDIC IT Procurement/Third Party
                                                      Products.
   Source: OIG Analysis of APM, FDIC policies, and BIS closing support contract documents.




                                                       14
Steps Taken by the OM
FDIC Guidance for OMs Related to Privacy and Information Security

•   Various FDIC policies and procedures describe the OM’s responsibilities for overseeing the contractor’s
    compliance with privacy and information security clauses. Key guidance is contained in the following:

     –   The FDIC’s APM and interim guidance establish policies and procedures for procuring goods and
         services, identify roles and responsibilities for all FDIC employees involved in the procurement
         process, and include specific guidance related to IT security in FDIC procurements.

     –   FDIC Circular 1360.17, IT Security Guidance for FDIC Procurements/Third Party Products, dated
         June 30, 2003, specifically addresses the OM’s role and responsibilities with respect to the oversight
         of contractor information security practices.

     –   FDIC Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007, establishes policy on
         protecting sensitive information collected and maintained by the Corporation and provides guidance
         for safeguarding the information. This circular describes the OM’s responsibilities with respect to the
         policy.




                                                15
Steps Taken by the OM
OIG Evaluation of Steps Taken by the OM

•   We found that the OM for the BIS closing support contract is taking multiple steps to ensure the contractor
    is aware of, and complying with, the privacy and information security clauses. Additionally, to ensure
    compliance with FDIC training requirements and sustain focus on the contractor’s responsibility for
    safeguarding FDIC data, the OM is planning to:

     –   Verify that contractor personnel have completed required information security and privacy awareness
         training before they work on closing support assignments. We believe this step, coupled with DRR’s
         routine tracking of completed training, will provide the OM with additional assurance that the
         contractor is complying with this provision of the contract and FDIC policy.

     –   Meet quarterly with all contractor personnel to reinforce the FDIC’s IT privacy and information
         security requirements. These meetings will serve as a useful reminder of the FDIC’s policies and
         procedures for protecting data.




                                                16
Steps Taken by the OM
•   Furthermore, with regard to IT equipment, the FDIC did not furnish the contractor with laptops as
    necessitated by a business need at the time the FDIC awarded the contract in 2006. Therefore, the FDIC
    relied on the contractor to maintain security features on its laptops consistent with FDIC information
    security standards. In June 2008, DRR established a pool of 25 laptops for the contractor’s use. The
    laptops were provided by DIT, and all DRR BIS pool laptops are fully encrypted to protect the data if the
    equipment is lost or stolen. Furnishing FDIC equipment allows the FDIC to ensure the security of
    information stored on the laptops and allows contractor personnel to store sensitive data on the laptops as
    circumstances dictate without violating the FDIC’s policy for protecting sensitive information. The FDIC’s
    Circular 1360.9, Protecting Sensitive Information, states that storage of sensitive electronic information is
    allowed only on corporate IT equipment. DRR’s BIS is responsible for tracking, cleaning, and reissuing the
    pool of laptops.

•   With regard to the contractor’s laptops used from the inception of the contract until June 2008, the FDIC
    has required the contractor to sanitize (remove sensitive information) those laptops and to certify that it is
    using FDIC sanitization procedures. The contractor has physically secured all of those laptops until the
    sanitization process is completed. A TM is (1) helping the OM coordinate with the contractor to ensure that
    sanitization is done in a timely manner and (2) maintaining a log to track the deployment of FDIC laptops
    to contractor personnel.




                                                 17
Steps Taken by the OM
•   We found one area that warrants attention by the CO and the OM. The CO and the OM found signed
    Confidentiality Agreements for only 32 (70 percent) of 46 contract employees. Confidentiality Agreements
    are a requirement, under the terms of the BOA, used to establish a mutual agreement between the FDIC and
    the contractor employee on the appropriate use and disclosure of confidential information. Various FDIC
    policies, including Circulars 3700.16, 1360.17, 1360.1, and 1360.9 detail the OM’s responsibilities for
    ensuring that the contractor is complying with the terms of a contract. Additionally, the FDIC APM and
    interim APM guidance state that contractor personnel must sign and return the Confidentiality Agreements
    to the CO and that the CO is responsible for ensuring signed agreements are retained in the contract file.
    The BOA is also clear on the need for contractor employees to return signed Confidentiality Agreements to
    the CO.

•   The CO and the OM are certain that all 46 contractor personnel signed the agreements, but the OM stated
    that some contractor personnel had inadvertently submitted the agreements to the Dallas Regional Office
    security staff along with background investigation paperwork. The OM is working with the CO to obtain
    copies of the agreements that are missing from the contract file.

•   Table 2 on the next page summarizes OM responsibilities and describes the steps being taken and planned
    by the OM to oversee the contractor’s compliance with privacy and information security requirements.




                                               18
Steps Taken by the OM
   Table 2: OIG Analysis of Oversight Related to Privacy and Information Security
    OM’s Oversight
    Responsibility                         Steps Taken                        Ongoing Oversight Planned
                                ; The OM stated that the terms of the        ; The OM stated that beginning in July
                                  contract were reviewed at the post-          2008, a quarterly meeting will be held
   Information Security Roles     award conference with specific               with all contractor personnel to, among
      and Responsibilities        attention given to information               other things, reinforce the need to
                                  security.                                    comply with FDIC privacy and
                                                                               information security program
                                ; Additionally, the OM and TMs                 requirements.
                                  provide contractor personnel with
                                  BIS-specific training that includes a
                                  module on data protection and
                                  adherence to all relevant IT directives.
                                ; The OM works with the CO to ensure         ; The OM will continue to ensure that
                                  that contractor personnel submit a           new contractor personnel comply with
                                  fingerprint application and credit           this requirement.
                                  report authorization to DOA’s
                                  Security Management Section.
                                  Contractor employees are not
   Background Investigations      permitted to begin working on-site
                                  unless a favorable fingerprint records
                                  check and credit report are received.
                                  The OM tracks approvals received
                                  from DOA’s Security Management
                                  Section and coordinates with the CO
                                  and Security Management Section to
                                  ensure that contractor personnel have
                                  submitted the paperwork necessary for
                                  a high-risk position.



                                                       19
Steps Taken by the OM
   Table 2: OIG Analysis of Oversight Related to Privacy and Information Security (Continued)
    OM’s Oversight
    Responsibility                  Steps Taken                     Ongoing Oversight Planned
                         ; The OM reviewed and approved the        ; The OM will continue to monitor
                           IT Security Plan submitted by the         compliance with the IT Security Plan
      IT Security Plan     contractor.                               through ongoing oversight of the
                                                                     contractor’s performance.
                         ; The OM also submitted the IT
                           Security Plan to DRR’s ISM for
                           review and approval.


                         ; The OM maintains a list to track        ; Going forward, the OM plans to verify
         Training          whether contractor personnel have         that contractor personnel have
                           received required training. The           completed required IT information
                           training information is obtained from     security and privacy awareness training
                           DRR’s ISM. However, this list was         before they work on tasks that involve
                           not up to date at the time of our         sensitive data. The OM and DRR’s
                           review, and a TM followed up with         ISM determined that this step, coupled
                           the ISM to verify that all contractor     with routine tracking of training, would
                           personnel had received appropriate        provide additional assurance that the
                           training.                                 contractor personnel met critical
                                                                     training requirements.




                                               20
Steps Taken by the OM
   Table 2: OIG Analysis of Oversight Related to Privacy and Information Security (Continued)
    OM’s Oversight
    Responsibility                      Steps Taken                     Ongoing Oversight Planned
                             ; The OM, in conjunction with              ; The OM and TMs will continue to
                               designated TMs, monitors the                 monitor the contractor’s compliance
                               contractor’s work on-site at Dallas or       with the privacy and information
       Site Visits and/or      at the site of resolution activity.          security provisions through ongoing
   Performance Evaluations     Unresolved performance issues are            oversight of the contractor’s
                               brought to the attention of the CO.          performance. Any issues specific to
                                                                            privacy or information security will be
                             ; The CO, TMs, and OM meet biweekly            discussed at the biweekly contract
                               with key contractor personnel and            status meetings as needed.
                               FDIC subject matter experts to discuss
                               performance or other contract issues.
                             ; Until June 2008, contractor personnel    ; DRR has a pool of 25 FDIC laptops
                               used their own stand-alone laptops.        supplied by DIT for the BIS closing
       Secure Network          The OM stated the contractor’s             support contract work in lieu of relying
         Equipment             laptops were equipped with necessary       on the contractor to maintain its laptops
                               security and encryption tools in order     consistent with FDIC security
                               to protect data. The OM also stated        requirements. All DRR BIS pool
                               that FDIC data was not stored on           laptops are fully encrypted to protect
                               contractor equipment unless contractor     the data if the equipment is lost or
                               personnel were in a “travel mode.”         stolen.
                                                                        ; DRR is responsible for tracking,
                             ; FDIC desktops are available in a           cleaning, and reissuing the laptops in
                               secure room for contractor personnel       the pool. A TM is maintaining a log to
                               use to upload data to FDIC systems.        track the deployment of the laptops to
                                                                          contractor personnel.
                                                                        ; With regard to the contractor’s laptops
                                                                          used prior to June 2008, the contractor
                                                                          is currently sanitizing its laptops and
                                                                          must provide a certification to the FDIC
                                                                          that this critical step was completed in
                                                                          accordance with FDIC standards. The
                                                                          OM and a TM are coordinating with the
                                                                          contractor to ensure this process is
                                                                          completed in a timely manner.



                                                         21
Steps Taken by the OM
  Table 2: OIG Analysis of Oversight Related to Privacy and Information Security (Continued)
   OM’s Oversight
   Responsibility                        Steps Taken                     Ongoing Oversight Planned
                             ; The OM stated that contractor            ; The CO is responsible for obtaining the
                               employees were submitting the              Confidentiality Agreements for the
                               Confidentiality Agreements along with      contractor personnel. Currently, the
                               their background investigation forms       OM is working with the CO to obtain
       Confidentiality         to the Dallas Security Section.            copies of all the Confidentiality
        Agreements             However, the Confidentiality               Agreements from the contractor
                               Agreements should have been                personnel. Going forward, the OM
                               submitted to the CO and placed in the      plans to work closely with the CO to
                               contract file.                             ensure that Confidentiality Agreements
                                                                          for new contractor personnel are
                             ; Because this was not done, the CO          included in the contract file. We made
                                 and OM found copies of agreements        a recommendation to DOA to
                                 for only 32 of the 46 contractor         strengthen controls in this area.
                                 personnel working on this contract.
                                 We could not, therefore, verify that all
                                 contractor personnel working on this
                                 contract had, in fact, executed
                                 Confidentiality Agreements.
  Source: OIG Analysis of FDIC policies and discussions with CO, OM, and TM.




                                                     22
Conclusion
•   DRR’s closing support BOA contains the necessary privacy and information security clauses consistent
    with FDIC guidance that was in place when the FDIC awarded the BOA. The OM plays a key role in
    ensuring that the contractor complies with the FDIC’s security requirements in order to help ensure that
    sensitive information is protected. As Table 2 indicates, we found that the steps being taken by the OM for
    the BIS closing support contract aligned with established OM responsibilities. In addition, the OM is
    planning to take steps to ensure the contractor has complied with the FDIC’s training requirements and to
    sustain contractor attention on its responsibilities for safeguarding information, including:

     –   Working with the ISM to verify that all contractor personnel have completed required privacy and IT
         security awareness training. In addition to routine tracking that occurs, the OM and ISM determined
         they will also begin verifying that contractor personnel have complied with annual training
         requirements before individual contractor employees are assigned to closing support tasks.

     –   Ensuring the contractor completes the sanitization process and provides the FDIC with the necessary
         certification.

     –   Keeping an up-to-date accurate log of FDIC-furnished equipment to minimize the risk to sensitive
         corporate data.




                                                23
Recommendation
•   We recommend that the Director, DOA:

     –   Develop a control mechanism to ensure that COs obtain signed Confidentiality Agreements from all
         contractor personnel required to submit such agreements and that copies of those agreements are
         maintained in the contract file.




                                              24
Corporation Comments and OIG
Evaluation
•   On August 28, 2008, the Director, DOA, provided a written response to the draft of this report.
    Management’s response is presented in its entirety in Appendix 2. Management concurred with our finding
    and recommendation.

•   In response to the recommendation, DOA’s Acquisition Services Branch will include Confidentiality
    Agreements in the Contracts Internal Review Checklist, currently under development, to ensure that
    Confidentiality Agreements are provided by the contractor and that the CO has uploaded these agreements
    into the contract file at the time of contract award and whenever changes occur in personnel required to
    submit the agreements.

•   A summary of management’s response to the recommendation is in Appendix 3. DOA’s planned actions
    are responsive to our recommendation. The recommendation is resolved but will remain open until we
    determine that the agreed-to corrective actions have been completed and are responsive.




                                               25
                                                                                                APPENDIX 1
                           OBJECTIVES, SCOPE, AND METHODOLOGY


Objectives

      The objectives of this audit were to (1) determine whether the closing support contract
      used by DRR’s BIS Section contains privacy and information security clauses to protect
      pre-closing and failed institution data and (2) evaluate the steps the OM takes to ensure
      the contractor is complying with the privacy and information security clauses.

      We conducted this performance audit from April 2008 through June 2008 in accordance
      with generally accepted government auditing standards. Those standards require that we
      plan and perform the audit to obtain sufficient, appropriate evidence to provide a
      reasonable basis for our findings and conclusions based on our audit objectives. We
      believe that the evidence obtained provides a reasonable basis for our findings and
      conclusions based on our audit objectives.


Scope and Methodology

      The scope of this assignment focused on privacy and information security clauses in the
      BIS closing support contract (BOA-FDIC1-050) and one task order (Task Order 2007-
      006), awarded under the BOA. We reviewed these documents to determine if the privacy
      and security clauses are in compliance with FDIC policies. We selected this task order
      because it accounted for approximately 43 percent of the total amount awarded as of
      June 19, 2008. 1 For purposes of evaluating the steps taken by the OM to monitor
      compliance with the contract clauses related to security and privacy awareness training,
      background investigations, and Confidentiality Agreements, we took into consideration
      all 46 of the contractor personnel the OM and CO identified as working on the task order
      under the BOA.


      Evaluation of the Privacy and Security Clauses

      To achieve our objectives, we:

          •   Obtained and reviewed various contract-related documents, including the BOA,
              Task Order 2007-006, the Statement of Work, and the contractor’s IT Security
              Plan.

          •   Obtained information from officials in DOA’s Acquisition Services Branch and
              DIT’s Information Security and Privacy Staff to gain an understanding of privacy
              and information security clause guidance that existed when the BOA was awarded
              in 2006 as well as to gain an understanding of evolving requirements. We also
              interviewed officials in DRR, including the OM and a TM, and representatives
              from DRR’s Information Security Unit.
      1
        The contract total as of June 19, 2008 was $8,475,611. The results of a non-statistical sample cannot be
      projected to the intended population by standard statistical methods.


                                                          26
                                                                                 APPENDIX 1


          •   Reviewed the FDIC’s policies and procedures, including:

                   o The FDIC’s APM and Interim Acquisition Policy Memorandum 2003.2,
                     Implementing IT Security in FDIC Procurements.

                   o Circular 1360.1, DRR Information Security Responsibilities, dated
                     November 18, 2005.

                   o Circular 1360.16, Mandatory Information Security Awareness Training,
                     dated July 23, 2002.

                   o Circular 1360.17, IT Security Guidance for FDIC Procurement/Third
                     Party Products, dated June 30, 2003.

                   o Circular 1360.9, Protecting Sensitive Information, dated April 30, 2007.

                   o Circular 1610.2, Security Policy and Procedures for FDIC Contractors
                     and Subcontractors, dated August 1, 2003.

                   o Circular 3700.16, DRR Contract Management, dated January 17, 2008.

                   o DRR’s Guidelines for Protecting Sensitive Information.

          •   Consulted with the Counsel to the OIG to evaluate the privacy and information
              security contract clauses.


Internal Control

      We assessed key FDIC internal controls related to privacy and security clauses,
      including:

          •   Relevant FDIC and DRR policies, procedures, guidance, and training.

          •   The roles and responsibilities of the OM and TMs.

      Additionally, we selected a random sample of contractor personnel and verified that
      DOA’s Security Management Section had completed required background investigations
      for the sampled contractor personnel commensurate with the high-risk designation for
      this contract. We noted no exceptions.




                                                  27
                                                                                   APPENDIX 1


Reliance on Computer-processed Information

      Our audit objective did not require that we assess the reliability of computer-processed
      information, and we did not rely on computer-processed information to support our
      significant findings, conclusions, and recommendations. Our assessment centered on
      reviewing hardcopy contract documentation provided by the CO and OM.


Performance Measurement

      We reviewed the FDIC’s 2005-2010 Strategic Plan and 2008 Annual Performance Plan
      to identify and understand the FDIC’s goals, objectives, and ongoing initiatives related to
      privacy and information security. The FDIC’s 2008 Annual Performance Plan provides
      an overview of planned 2008 initiatives to enhance the Corporation’s management of its
      key strategic resources. Initiatives address IT Resource Management, the Corporate
      Privacy Program, and Information Security Program.

      DIT has issued a Privacy Program Strategic Framework that establishes a formal,
      comprehensive strategic framework that integrates the FDIC’s privacy program mission,
      vision, principles, goals and objectives, governance structure, key initiatives and
      activities, performance measurement, monitoring and methods for reporting, and roles
      and responsibilities.


Compliance With Laws and Regulations

      The following laws and regulations were relevant to our objectives.

         •   Privacy Act of 1974;
         •   Gramm-Leach Bliley Act;
         •   Section 522 of the Transportation, Treasury, Independent Agencies, and General
             Government Appropriations Act 2005;
         •   FDIC’s Rules and Regulations – Parts 309, Disclosure of Information; and 310,
             Privacy Act Regulations; and
         •   12 Code of Federal Regulations Part 366, Minimum Standard of Integrity and
             Fitness for an FDIC Contractor.

      We found no instances where the FDIC was not in compliance with applicable laws and
      regulations.

      We assessed the risk of fraud and abuse related to the audit objective in the course of
      evaluating audit evidence.




                                                  28
                                                                                   APPENDIX 1


Prior Coverage

      We considered the following reports issued by the FDIC OIG in planning and conducting
      our work:

         •   Audit Report No. 07-013 entitled, Response to Privacy Program Information
             Request in OMB’s Fiscal Year 2007 Reporting Instructions for FISMA and
             Agency Privacy Management, dated September 2007. The objective of the audit
             was to assess the status of the FDIC’s privacy program activities and initiatives.
             The reported concluded that the FDIC continues to take action to safeguard its
             personally identifiable information (PII) and related systems and address privacy-
             related provisions of recent Office of Management and Budget memoranda. Of
             particular note, the FDIC has provided privacy-awareness training. The report
             contained no recommendations.

         •   Audit Report No. 07-010 entitled, Division of Resolutions and Receiverships
             Protection of Electronic Records, dated September 2007. The objective of the
             audit was to evaluate the design and implementation of selected controls
             established by DRR for safeguarding sensitive electronic information collected
             and maintained as a result of resolution and receivership activities at FDIC-
             insured institutions. DRR has established a number of important controls to
             safeguard the sensitive electronic information it collects and maintains as a result
             of resolution and receivership activities at FDIC-insured financial institutions.
             However, a number of deficiencies were identified that increased the risk of
             unauthorized use of sensitive information. DRR and DIT security officials took
             prompt action to restrict access to vulnerable sensitive information that we
             identified during the audit and agreed to the four recommendations made in the
             report to strengthen controls.

         •   Evaluation Report No. EM-07-004 entitled, Risk Designation Levels for
             Information Technology Staff and Privacy Act Clauses in FDIC Contracts, dated
             August 2007. The objective of the evaluation was to identify best practices at
             other federal agencies pertaining to risk designation levels for IT agency staff and
             Privacy Act clauses in FDIC contracts. With regard to the contract clauses, the
             report states that the Privacy Act clause currently incorporated in FDIC contracts
             was consistent with federal contracting requirements.

         •   Audit Report No. 06-017 entitled, DRR’s Protection of Bank Employee and
             Customer Personally Identifiable Information, dated September 2006. The
             objective of this audit was to determine whether DRR adequately protects PII
             collected and maintained as a result of resolution and receivership functions. The
             audit focused attention on DRR efforts to protect PII in hardcopy form. DRR has
             established certain controls over the resolution and receivership process,
             addressing the protection of sensitive bank employee and customer PII. However,
             given the increased risks associated with, and attention being placed on, identity
             theft, the audit identified opportunities for DRR to strengthen controls over its


                                                  29
                                                                      APPENDIX 1


    handling of sensitive bank employee and customer PII obtained during the
    resolution and receivership process. In particular, DRR had not established a
    Records Management Program that defines recordkeeping requirements for the
    inventory, maintenance, control, and use of hardcopy documents. The report
    recommended that DRR work with DOA, and other cognizant FDIC divisions and
    offices, in developing a DRR Records Management Program. DRR agreed with
    the recommendation.

•   Audit Report No. 03-043, Follow-up Audit of Information Security Management
    of FDIC Contractors, dated September 2003. The objective of this audit was to
    determine whether the FDIC had made adequate progress in addressing
    recommendations in Audit Report No. 02-035 entitled, Information Security
    Management of FDIC Contractors, dated September 2002. The audit focused on
    information security in acquisition planning, contract security provisions, and
    contractor oversight. The report concluded that the FDIC had developed and was
    finalizing policies and procedures to address the prior audit report’s
    recommendations regarding security in acquisition planning, contract
    requirements, and contractor oversight. The report included a recommendation
    for the FDIC to update its Policy on Off-site Contractor Network Connectivity.
    The FDIC agreed to the recommendation.




                                       30
                       APPENDIX 2

CORPORATION COMMENTS
     APPENDIX 2




32
                                                                                        APPENDIX 3

              MANAGEMENT RESPONSE TO THE RECOMMENDATION


This table presents the management response on the recommendation in our report and the status
of the recommendation as of the date of report issuance.

 Corrective Action: Taken             Expected
      or Planned for the             Completion          Monetary    Resolved:a Open or
      Recommendation                     Date            Benefits    Yes or No Closedb
DOA’s Acquisition Services          December 31,           $0        Yes        Open
Branch will include                 2008
Confidentiality Agreements in
the Contracts Internal Review
Checklist, currently under
development, to ensure that
Confidentiality Agreements
are provided by the contractor
and that the CO has uploaded
these agreements into the
contract file.

a
    Resolved – (1) Management concurs with the recommendation, and the planned, ongoing, and completed
                   corrective action is consistent with the recommendation.
               (2) Management does not concur with the recommendation, but alternative action meets the
                   intent of the recommendation.
               (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0)
                   amount. Monetary benefits are considered resolved as long as management provides an
                   amount.
b
  Once the OIG determines that the agreed-upon corrective actions have been completed and are responsive
to the recommendation, the recommendation can be closed.




                                                    33
                                                  APPENDIX 4

             ACRONYMS USED IN THE REPORT


APM   Acquisition Policy Manual
BIS   Business Information Systems
BOA   Basic Ordering Agreement
CO    Contracting Officer
DIT   Division of Information Technology
DOA   Division of Administration
DRR   Division of Resolutions and Receiverships
EDP   Electronic Data Processing
ISM   Information Security Manager
IT    Information Technology
LAN   Local Area Network
OM    Oversight Manager
PII   Personally Identifiable Information
TM    Technical Monitor




                                 34
